     REVIEW OF THE PHOENIX POLICE
DEPARTMENT’S 2008 KIDNAPPING STATISTIC
  REPORTED IN DEPARTMENT OF JUSTICE
         GRANT APPLICATIONS




       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


         Report GR-60-12-006
             March 2012
               REVIEW OF THE PHOENIX POLICE
     DEPARTMENT’S 2008 KIDNAPPING STATISTIC REPORTED IN
         DEPARTMENT OF JUSTICE GRANT APPLICATIONS


      The Office of the Inspector General (OIG) has completed a review of
the Phoenix Police Department (PPD) in Phoenix, Arizona, in order to verify
the number of 2008 kidnapping incidents reported in the grant application
materials submitted by the PPD under Office of Justice Programs (OJP) Grant
Nos. 2009-SC-B9-0108 and 2010-DG-BX-0020. 1 In each of these grant
applications the PPD stated that the City of Phoenix had over 300 kidnapping
incidents in 2008.

Background

      In 2009, various news outlets, politicians, and the PPD itself referred
to the City of Phoenix as the, “Kidnapping Capital of America.” In particular,
one news source reported that the City of Phoenix had more incidents than
any other city in the world outside of Mexico City and over 370 cases in
2008 alone. Contrary to this media coverage, the OIG received an allegation
that although the City of Phoenix and PPD officials testified to Congress that
there were 368 kidnappings in 2008, the actual number of kidnapping
incidents was closer to 50.

      As a result of this allegation, we reviewed the PPD’s Office of Justice
Programs (OJP) grant applications to determine whether the number of
2008 kidnapping incidents was accurately reported in the PPD’s grant
applications that were submitted in the pursuit of federal funding. 2 As
shown in Table 1, we determined that PPD officials included the number of




       1
           In our judgment, application materials are intended to provide reasonable
assurance to the granting agency that the applicant is in need of the funding, that the goals
and objectives are in line with the program’s mission, and that management has the ability
to sufficiently administer the grant. It is the responsibility of the applicant to provide
complete and reliable data in the application materials, so that the granting agency has an
opportunity to fairly assess each applicant for the final funding decision. With this aim in
mind, it is essential for applicants to ensure that the data they provide to the granting
agencies is generated consistently and accurately.

       2
          We reviewed 17 of the 21 closed grant applications, and all 11 active grant
applications awarded by the OJP from FY 1999 to FY 2010. Four of the PPD’s closed grant
application materials were not available in OJP’s Grants Management System. However,
these awards were funded prior to 2004, and as such, not vital to our review of the number
of kidnapping incidents that occurred in 2008.

                                            -1-
kidnapping incidents in their grant application materials for the following two
OJP grants, which awarded the PPD over $2.4 million in federal funding. 3

                         TABLE 1
       GRANTS AWARDED THAT INCLUDE THE NUMBER OF
 KIDNAPPING INCIDENTS IN THE GRANT APPLICATION MATERIALS
                         Award
 Award Number           Amount                          Purpose of Grant:
2009-SC-B9-0108 4      $1,725,349    To implement Operation Home Defense, which is
                                     intended to expand the city's capabilities to address
                                     the rise in border-related crime, in particular home
                                     invasion and kidnapping incidents.
2010-DG-BX-0020 5        $747,845    To implement Project Eagle Eye, which is intended to
                                     address home invasions and kidnappings within the
                                     City of Phoenix.
      Totals:          $2,473,194
Source: OJP’s Grant Management System (GMS)

      Specifically, the grant application materials for both Grant
Nos. 2009-SC-B9-0108 and 2010-DG-BX-0020, stated that the City of
Phoenix had over 300 kidnapping incidents in 2008. As a result, the
objective of this review was to verify the number of 2008 kidnapping
incidents as reported in the grant application materials submitted for Grant
Nos. 2009-SC-B9-0108 and 2010-DG-BX-0020.

     In January 2011, we requested and were provided with the supporting
documentation, including Departmental Reports and case management
       3
           In its response to our draft report dated January 3, 2012, OJP stated that “neither
application was funded exclusively or even substantially because of the specific problem
statements made by the PPD,” and that “the volume of offenses was not seen as a primary
factor in the award of grants.”
       4
         Grant No. 2009-SC-B9-0108 was awarded to the PPD through fiscal year
(FY) 2009 American Recovery and Reinvestment Act (Recovery Act) funds under the Edward
Byrne Memorial Competitive Grant Program – Category I: comprehensive
community-based, data-driven approaches to prevent and reduce violent crime.
       5
           Grant No. 2010-DG-BX-0020 was awarded to the PPD through FY 2010 Bureau of
Justice Assistance Solicited Funds. According to the approved Assistant Attorney General
(AAG) funding memorandum, due to limited resources in 2009 the BJA was not able to fund
all applicants of the FY2009 competitive solicitation. As such, BJA staff reviewed all
applications which scored a minimum of 70 or above in 2009 and considered these
applicants in light of the funding priorities for FY 2010. The BJA continued funding in
FY 2010 for projects that were previously competed because such projects continue to be
critical to BJA's mission, address BJA's current strategic priorities, and serve as a strong
investment in meeting the needs of the field. For this reason, the Phoenix Police
Department was awarded money to implement Project Eagle Eye under the 5 percent set
aside under the Edward Byrne Memorial Justice Assistance Grant Program (JAG) Program to
address current or projected "precipitous increases in crime."


                                            -2-
records, for the number of kidnapping incidents as reported in the grant
application materials. 6 From this request we were provided with a total of
358 purported kidnapping incidents. In our initial case review we identified
a substantial number of cases that did not appear to be properly categorized
as kidnapping incidents. We informed the PPD of our preliminary findings in
January 2011. As a result, the PPD directed its Professional Standards
Bureau, Inspections Unit, to conduct an internal review of the
2008 kidnapping incidents. During this review, the inspectors searched
additional Departmental Reports, resulting in the PPD providing the OIG with
an additional 175 purported kidnapping incidents in May 2011. Therefore, to
accomplish our objective we reviewed a total of 533 case files.

Elements of a Kidnapping

      PPD officials utilize the Arizona Criminal Code to define and categorize
offenses. Accordingly, we first evaluated each of the provided case files to
determine if a kidnapping incident occurred based on the elements of
Arizona’s kidnapping statute, which states:

      A person commits kidnapping by knowingly restraining another person
with the intent to:

       1. hold the victim for ransom, as a shield or hostage; or

       2. hold the victim for involuntary servitude; or

       3. inflict death, physical injury or a sexual offense on the victim, or to
          otherwise aid in the commission of a felony; or

       4. place the victim or a third person in reasonable apprehension of
          imminent physical injury to the victim or the third person; or

       5. interfere with the performance of a governmental or political
          function; or

       6. seize or exercise control over any airplane, train, bus, ship or other
          vehicle. 7

       6
          The PPD utilizes Departmental Reports as the primary document for recording any
crime or incident having occurred within the City of Phoenix, either reported to the PPD or
observed by an officer. Departmental Reports convey information and intelligence to
authorized persons other than the writer; therefore, according to PPD policy, the primary
considerations of reporting are clarity, accuracy, and completeness of the information
recorded.
       7
           Ariz. Rev. Stat. Ann. § 13-1304(A) (West 2011).


                                            -3-
       In conducting our analysis we first determined whether, according to
the allegations contained in the report, the suspect knowingly restrained the
victim. 8 If we determined that the allegations showed the suspect knowingly
restrained the victim, we then determined whether any of the six criteria for
intent under the Arizona kidnapping statute would be satisfied if the
allegations were proven. If one or more of these elements could be
satisfied, then we concluded that a kidnapping incident occurred. If the
suspect did not knowingly restrain the victim, or none of the six criteria for
intent existed, then we determined that a kidnapping incident did not occur.
In instances where there was not enough information documented in the
case file to confirm that the elements of a kidnapping were alleged, we
determined that there was not sufficient evidence to conclude that a
kidnapping incident occurred for purposes of reporting it on the grant
application.

Coding and Classification of Incidents for Crime Reporting Purposes

       During our review, PPD officials indicated that they generated the
number of kidnapping incidents reported in the grant applications in a
manner similar to the way their other crime statistics are generated under
the Federal Bureau of Investigation’s (FBI) Uniform Crime Reporting (UCR)
guidelines. We also learned that the PPD’s case management system was
specifically designed to conform to UCR guidelines, and that the PPD’s
policies and procedures for Departmental Reports reflect the same
guidelines. Therefore, we reviewed the FBI’s UCR Handbook for generally
accepted guidelines and guidance for crime reporting practices, in particular
multiple offense situations and related offenses. Although kidnapping is not
a reportable statistic under UCR guidelines, it is reasonable, in our
judgment, to apply the same UCR guidelines and criteria for all offense
statistics put forth by the PPD. By using this framework, the data and all
crime statistics reported by the PPD would be consistently and uniformly
generated, whether the offense is reportable or non-reportable under UCR.

      Therefore, in addition to determining the number of kidnapping
incidents based on our analysis of the case files in view of the Arizona
kidnapping statute, we further evaluated the case files provided to us based

       8
           According to Arizona Criminal Code, unless the context otherwise requires
in the chapter, “restrain” means to restrict a person’s movements without consent,
without legal authority, and in a manner which interferes substantially with such
person’s liberty, either moving such person from one place to another or by confining
such person. Restraint is without consent if it is accomplished by: (a) physical
force, intimidation or deception; or (b) any means including acquiescence of the
victim if the victim is a child less than eighteen years old or an incompetent person
and the victim’s lawful custodian has not acquiesced in the movement or
confinement. Ariz. Rev. Stat. Ann. § 13-1301(2)(a)(b) (West 2011).


                                           -4-
on PPD policies and procedures as well as the UCR guidelines and criteria for
crime reporting that existed at the time of our review.

PPD Policy and Procedures for Coding and Classifying Incidents

       Throughout our review, PPD officials stressed that kidnapping is
typically not a standalone offense, and more often than not, other related
offenses are part of the incident. Because of this potential multiple offense
situation, PPD policy requires incidents to be labeled by the primary crime,
or highest offense based on Arizona statues. Since PPD crime statistics are
queried from the PPD’s Police Automated Computerized Entry (PACE) case
management system through the primary, or highest offense, labeled on
each case file, the PPD relies on the officers to properly maintain and update
the Departmental Report and case management record for each incident.
This includes, but is not limited to, updating the PACE radio code, Arizona
statute code, case status, disposition, assigned unit, suspect status, and
case information.

       During our review we determined that there are various offenses that
can qualify as the same level of offense based on the Arizona Criminal Code.
For example, the following offenses also have the potential to be classified
as a class 2 felony - the same level of offense as a kidnapping: aggravated
assault, sexual assault, theft by extortion, armed robbery, and attempted
first and second degree murder.9 Therefore, we followed up with an official
from the PPD’s Crime Research and Analysis Unit regarding the policies and
procedures an officer should follow when classifying and coding an incident
involving two or more offenses classified at the same level. From this
discussion, we learned that officers should follow their unit’s policies and
procedures in determining which offense should be reported as the primary
offense for purposes of classifying the incident. The research and analysis
unit official also noted that this unit-by-unit approach and lack of policy
contributed to the level of inconsistency in the PPD’s reporting processes,
and that more stringent guidelines are needed in this area. Currently,
officers with this responsibility have a lot of discretion on how to code and
classify the Departmental Report by the primary or highest offense, based
on Arizona statutes.




      9
          Ariz. Rev. Stat. Ann. § 13-1304 (B) (West 2011); Ariz. Rev. Stat. Ann. § 13-1204
(C), (D), and (E) (1) (West 2011); Ariz. Rev. Stat. Ann. § 13-1406 (B) (West 2011); Ariz.
Rev. Stat. Ann. § 13-1804 (C) (West 2011); Ariz. Rev. Stat. Ann. § 13-1904 (B) (West
2011); Ariz. Rev. Stat. Ann. § 13-1105 (D) (West 2011) and Ariz. Rev. Stat.
Ann. § 13-1001 (C) (1) (West 2011); and Ariz. Rev. Stat. Ann. § 13-1104 (C) and Ariz. Rev.
Stat. Ann. § 13-1001 (C) (1) (West 2011).


                                          -5-
       Due to the previously mentioned complexities regarding the proper
classification of incidents and because the information in the PACE case
management system is queried for crime reporting purposes, it is imperative
that the PPD provide additional guidance on how to determine the highest
level offense for coding purposes and that the officers and supervisors
properly update and manage the case files in order to limit statistical
inaccuracies in crime reporting.

FBI’s UCR Guidelines for Crime Reporting

       As noted above, the PPD utilizes UCR guidelines and criteria to develop
and report annual crime statistics for the City of Phoenix. Therefore, we
reviewed the FBI’s UCR Handbook for applicable guidelines and guidance for
crime reporting. According to the UCR Handbook, in a multiple offense
situation, the law enforcement agency must locate the offense that is the
highest on the hierarchy list and report that offense and not the other
offense(s). This is known as the Hierarchy Rule. The PPD policy that
Departmental Reports should be classified as the primary, or highest,
offense based on Arizona statutes is consistent with the UCR Handbook’s
Hierarchy Rule.

      Kidnapping often includes the intent to engage in or the actual
commission of some other criminal act. The PPD policy provides little
guidance for the coding and classification of an incident when there are two
or more offenses that qualify as the primary or highest offense based on
Arizona statutes. Therefore, we consulted the UCR Handbook about how to
treat such related offenses. For example, the UCR Handbook identifies
assault as a related offense of robbery. It states that “because some type of
assault is an element of the crime of robbery, an assault must not be
reported as a separate crime as long as it was performed in the furtherance
of the robbery.”

      In applying the guidelines in the UCR Handbook, an incident should be
counted as a kidnapping when the movement or confinement of an individual
was not an integral part of the separate offense or was not merely incidental
to the commission of the other crime. Accordingly, we determined that the
elements of a kidnapping are generally not separable or distinct from
offenses such as armed robbery, carjacking, sexual assault, aggravated
assault or homicide, for reporting purposes because the act of confinement,
or restraint, facilitates the furtherance of these other offenses. We used this
approach to analyze the proper coding and classification of Departmental
Reports when two or more offenses of the same level felony occurred.

     From our review of the incidents for which the elements of a
kidnapping existed using the Arizona kidnapping statute, we identified

                                     -6-
inconsistencies with the PPD’s coding and classification process that could
affect the PPD’s ability to generate reliable statistics. Specifically, PPD
policy, UCR guidelines, and criteria for crime reporting practices would not
have resulted in some of these incidents being reported as kidnappings,
despite the presence of each of the elements of kidnapping under the
Arizona statute. Instead, these incidents should have been counted as a
different, greater offense for crime reporting purposes.

OIG Case Review of the Original 358 Incidents

Elements of a Kidnapping Based on Arizona Statute

       For the purpose of assessing the accuracy of the PPD’s grant
applications, we first determined whether the elements of a kidnapping
under the Arizona kidnapping statute were present. Based on our review of
the original 358 incidents provided to the OIG by the PPD in January 2011,
we determined that the elements of a kidnapping were satisfied in only
208 of the 358 incidents, which represents 58 percent of the 358 case files.
However, as we describe in the following section, based on PPD policy and
procedures and generally accepted crime reporting criteria, many of these
cases would not qualify as kidnappings under crime reporting guidelines. 10
In 9 additional incidents, although we identified the elements of a
kidnapping, 7 of these incidents did not occur within the PPD’s jurisdiction,
and 2 incidents did not occur in 2008. For the remaining 141 incidents, we
determined that the elements of a kidnapping did not exist or there was not
enough information documented in the case file to substantiate the elements
of a kidnapping based on the Arizona kidnapping statute. Therefore, when
analyzed against the elements of the offense of kidnapping, the case files
provided to us by the PPD for the initial 358 purported kidnapping incidents
on which the statements made in the DOJ grant applications were based did
not support the statement that there were over 300 kidnapping incidents in
Phoenix during 2008.

Incidents Qualifying as Kidnappings Based on Crime Reporting Guidelines

      We further evaluated the original 358 case files based on PPD policies
and procedures, as well as the UCR guidelines and criteria for crime
reporting. Using this approach, we determined that only 195 of the
358 incidents, or 54 percent, should have been classified as kidnappings for


       10
           Under this methodology, PPD kidnapping incidents include: homicides, sexual
assaults, aggravated assaults, and robberies, where the suspect knowingly restrains the
victim with the intent to cause physical injury, a sexual offense, or to otherwise aid in the
commission of a felony.


                                             -7-
crime reporting purposes. These incidents should have been classified as
kidnappings for the PPD’s 2008 kidnapping statistic because:

   •   the incident occurred in 2008;

   •   the incident occurred within the PPD’s jurisdiction;

   •   the elements of a kidnapping existed based on the Arizona kidnapping
       statute;

   •   the movement or confinement of the individual was not an integral
       part of a separate offense or was not merely incidental to the
       commission of another crime; and

   •   kidnapping was the primary or highest offense, based on Arizona
       Criminal Code. 11

OIG Case Review of the Subsequently Provided 175 Incidents

       After we informed the PPD that our review of the 358 case files
provided did not support the statement made in the grant applications that
the City of Phoenix had over 300 kidnapping incidents in 2008, PPD officials
notified us that it had conducted an additional search of its case
management system and identified an additional 175 kidnapping incidents
for 2008. In May 2011, the PPD provided us case files for those
175 purported kidnapping incidents. Although the second set of case files
did not contribute to the PPD’s statements in its grant applications that the
City of Phoenix had over 300 kidnapping incidents in 2008, we analyzed
them to determine whether the kidnappings statistics cited by the PPD could
be supported by Departmental Reports of incidents occurring in 2008.

Elements of a Kidnapping Based on Arizona Statute

       Based on our review of these 175 incidents and the Arizona kidnapping
statute, we determined that the elements of a kidnapping were satisfied in
150 incidents, or 86 percent of the total 175 case files gathered by the PPD
in May 2011. However, as we describe in the following section, based on
PPD policy and procedures and generally accepted crime reporting criteria,
many of these cases would not qualify as kidnappings under crime reporting
guidelines. For the remaining 25 incidents we determined that the elements
of a kidnapping did not exist or there was not enough information available

       11
          According to PPD policy, and in line with the UCR Handbook’s Hierarchy Rule,
incidents are to be classified as their primary, or highest, offense based on Arizona Criminal
Code.


                                            -8-
to substantiate the elements of a kidnapping based on the Arizona
kidnapping statute.

Incidents Qualifying as Kidnappings Based on Crime Reporting Guidelines

       By applying PPD policy, UCR guidelines and criteria for the coding and
classification of offenses to these 175 incidents, we determined that only
59 of these incidents, or 34 percent, should have been classified as a
kidnapping for crime reporting purposes.

Summary of OIG Analysis

     The results of our analysis for the initial 358 case files provided in
January 2011, and the subsequent 175 case files provided in May 2011, is
shown in Table 2:

                            TABLE 2
          SUMMARY OF OIG ANALYSIS OF THE 533 PURPORTED
            KIDNAPPING INCIDENTS PROVIDED BY THE PPD
                               Arizona                         PPD Crime
                             Kidnapping                         Reporting
                          Statute Elements                    Requirements
                              Satisfied         Percent         Satisfied    Percent
 Original 358
 incidents provided in
 January 2011 as
 basis for statement
 in grant application             208              58             195          54
 Subsequent 175
 incidents provided in
 May 2011                         150              86              59          34
         Totals                   358             67              254          48
Source: OIG Analysis of the case files provided by the PPD.

       As the table above shows, the PPD’s statement in its grant applications
that the City of Phoenix had over 300 kidnapping incidents in 2008 was not
supported by the original 358 records provided to us, which the PPD relied
upon in making the statement in its grant application. Only 208 of these
incidents, 58 percent, met the elements of a kidnapping pursuant to the
Arizona kidnapping statute, and only 195, 54 percent, would properly have
been classified as kidnappings under PPD policy and UCR guidelines and
criteria for crime reporting.

      When the PPD performed its subsequent, after-the-fact case
management file search and provided us with an additional 175 purported
incidents, we found that 150 of these incidents, 86 percent, contained the


                                           -9-
elements of a kidnapping pursuant to the Arizona kidnapping statute and
only 59 of the incidents, 34 percent, should have been classified as
kidnappings for crime reporting purposes per the PPDs internal reporting
requirements. As a result, we concluded that the PPDs subsequent search
for kidnapping incidents yielded enough additional incidents to ultimately
support its statement in the grant applications when the counting criterion
was whether the elements of a kidnapping were present. However, we note
that even with the subsequent search, the PPD did not provide us with more
than 300 incidents that should be classified as kidnapping for crime reporting
purposes when the counting criterion was the PPDs internal reporting
requirements.

      Based on the discrepancies previously mentioned with the PPD’s
coding and classification of crimes, we found that applying the elements of
the Arizona kidnapping statute to the PPD’s case files may overstate the
number of kidnapping incidents for crime reporting purposes because cases
could be counted as kidnappings when a different, greater offense may also
have occurred.

Other Issues Identified During Case Review

      During our case review, we identified additional issues with the PPD’s
coding and classification of incidents, as well as the PPD’s management of
case files. Specifically, we found:

   •   74 incidents that should be coded and classified as an offense other
       than kidnapping; 12

   •   39 incidents that do not have enough information to substantiate that
       the elements of a kidnapping were satisfied;

   •   17 unsubstantiated eyewitness accounts that should not be counted
       for crime reporting purposes; 13




       12
           In our judgment, these incidents were not coded and classified as the primary, or
highest offense based on Arizona Criminal Code. In particular, 1 incident should be coded
and classified under homicide, 3 under domestic violence, 2 under custodial interference,
20 under carjacking, 28 under human smuggling, 8 under extortion, and 12 under unlawful
imprisonment. As such, these 74 incidents would not qualify as a kidnapping for the PPD’s
crime reporting purposes.


                                           - 10 -
   •   7 incidents were not properly coded and classified as unfounded; 14

   •   5 incidents that occurred outside the PPD’s jurisdiction; 15

   •   24 duplicative reports; 16 and

   •   the PPD’s use of related reports is not consistent with their policy, no
       policy exists for the generation of certain reports, and that in most of
       these occurrences a single incident is counted under more than one
       offense for crime reporting purposes. 17

       In regards to the PPD’s coding and classification of incidents, these
issues have the potential to affect the PPD’s ability to generate reliable
statistics for the City of Phoenix.



       13
          PPD policy states that if an employee is in doubt as to whether a crime has
occurred, or if the incident did not occur within the jurisdiction of the City of Phoenix, a
Departmental Report will be classified as an Information Received/Non-Crime Report, and
thereby not counted for the purpose of generating statistics. In our judgment, there was
not enough information or evidence documented in the case file of these 17 eyewitness
accounts to substantiate that the elements of a kidnapping were satisfied, and that another
offense of a more serious level or an offense that is specifically excluded from this statistic
occurred. As such, these incidents would not qualify as kidnappings for the PPD’s crime
reporting purposes.
       14
          Unfounded cases arise when the police officer is unable to obtain enough
corroborating evidence to ensure that a crime occurred, or during their investigation it is
determined that a crime did not occur. In these seven incidents, the officer was able to
determine that a crime did not occur. As such, these cases should have been reclassified as
unfounded and would not qualify based on crime reporting guidelines.
       15
           In these five cases, we determined that the elements of a kidnapping were not
articulated in these cases. Also, we found that in one incident the PPD was unable to
determine the location of the purported incident, one incident did not occur within the City
of Phoenix, and three incidents where the case was taken over by another agency. As such,
these incidents would not qualify as kidnappings for the PPD’s crime reporting purposes.
       16
          According to the UCR Handbook’s guidelines and criteria and PPD policy, each
incident should only be counted once for crime reporting purposes and not counted under
multiple offenses. These 24 incidents were found within the original set of 358 incidents
and were duplicative of other kidnapping incidents, or incidents classified under another
offense.
       17
           In our judgment, these occurrences have the potential to allow a single incident
to be counted under more than one offense for crime reporting purposes. Also, some of
these occurrences were identified from the documentation provided by the PPD during our
follow-up requests for additional supporting documentation, and not solely within the
original set of 358 incidents or within the subsequently provided 175 incidents.


                                            - 11 -
Conclusion

       The City of Phoenix has touted itself as the ”Kidnapping Capital of
America.” In two grant applications that resulted in the award of over
$2.4 million in Department of Justice law enforcement grant funding, the
PPD stated that it had over 300 kidnapping incidents in 2008. Subsequent
news accounts reported that Phoenix kidnapping statistics were inflated, and
the OIG received a complaint making similar allegations. We therefore,
reviewed the initial 358 case files provided to us by the PPD as the basis for
the PPD’s statement in its grant applications. We concluded that those case
files did not support that the City of Phoenix experienced over
300 kidnappings in 2008. When we informed the PPD of our preliminary
findings, they subsequently produced 175 additional records of purported
kidnapping incidents in 2008. Following our review of these additional
records, gathered approximately 2 years after submission of the grant
applications, we determined under one manner of counting cases that the
PPD’s statements could be supported. However, as we describe below, this
type of counting was problematic because many of these cases would not
qualify as kidnappings under crime reporting guidelines.

       Although we found that the PPD was able to support the statement in
its grant applications based on the elements of kidnapping under the Arizona
statute (after performing its subsequent case file review for 2008 cases), we
also found, based on our analysis of the cases under the crime reporting
criterion, that the elements method likely overstates the number of
kidnappings by counting as kidnappings incidents that should be counted as
a different, greater offense. Based on the discrepancies we identified, we
believe that the PPD has significant problems with its coding and
classification of cases and, consequently, with the accuracy of reports from
its case management system. We believe that the inaccuracies noted in this
report about the PPD’s gathering of kidnapping statistics for its grant
applications and otherwise are the result of insufficiently clear guidance to
officers and managers on coding and classification of offenses and an
outdated system used by the PPD to collect and retrieve its crime statistics.

       According to PPD officials, police officers have not received the proper
training to accurately document and account for incidents in the PPD’s
antiquated case management system. This issue is further compounded by
a lack of adequate policies and procedures or system quality control reviews.
The City of Phoenix’s Review Panel also found that the error rate for
kidnapping cases reporting in 2008 was due to a departmental culture at the
level of line officers and lower supervisory officials that does not understand
the significance of the reporting and case management function while the




                                    - 12 -
PPD Executive Management permits this culture to exist. 18 In our judgment,
if these concerns are not addressed, the validity and accuracy of future
crime reporting information put forth by the PPD will be negatively affected.

       Even though the PPD utilizes an outdated case management system,
proper system controls and processes will help ensure that the data
generated from the system would be sufficiently reliable, consistent, and
uniformly inputted and maintained. This will provide assurance that the
likelihood of significant errors or incompleteness is minimal for all key
elements, and that the use of the data would not lead to an incorrect or
unintentional message or decision, given the intended use of the data. If
these concerns are not addressed, the validity and accuracy of future crime
reporting information put forth by the PPD will be negatively affected.

                        ♦                     ♦                    ♦

      As described previously, our review was performed in line with our
limited objective and would not necessarily disclose all weaknesses in the
PPD’s overall internal controls, operating procedures, accounting practices,
and compliance with policy.




       18
           Shortly after the OIG’s initial review of the PPD’s 2008 kidnapping incidents in
January 2011, Phoenix’s City Manger appointed a review panel to conduct an inquiry into
the questions surrounding the PPD’s kidnapping statistics for 2008. That panel issued its
final report in May 2011, which concluded, in part, that an audit conducted by the PPD’s
Professional Standards Bureau, which reviewed more than 1,700 cases files and found that
at least 668 separate incidents occurred in Phoenix in 2008 that met the statutory criteria
for kidnapping, was credible. We did not analyze and do not offer an opinion on the
Professional Standards Bureau audit. However, as stated previously in this report, we
reviewed each of the 533 provided case files to determine if the kidnapping incident met the
statutory criteria for kidnapping, and further evaluated each case file based on PPD policies
and procedures as well as the UCR guidelines and criteria for crime reporting that existed at
the time of our review to determine if an incident should have been classified as a
kidnapping for crime reporting purposes.


                                           - 13 -
                                                                                                 APPENDIX I



                                                      U.S. Department of Justice

                                                     Office ofJustice Programs

                                                     Office ofAudit, Assessment. and Management


                                                    H'aslli"gUJtt. D.C. ]05)1




MEMORANDUM TO,                  David M. Shecren
                                Regional Audit Manager
                                Denver Regional Audit Office
                                Office of the Inspector General

FROM,                           Maureen~ ..f-!:cllneberg
                                Director YlA...Jq ~t

SUBJECT,                       Response to the Draft Audit Report. Review of the Phoenix Police
                               Department 's 2008 Kidnapping Statistic Reported in Department
                               ofJustice Grant Applications

         The Office of Justice Programs (OJP) appreciates the opportunity to review and comment
on the Office of the Inspector General' s (OlG ' s) draft report, entitled "Review of the Phoenix
Police Department's 2008 Kidnapping Statistics Reported in Department of Justice Grant
Applications," dated Deccmber 12, 2011. The draft report indicates that the 010 review was
conducted to validate the number of 2008 kidnapping incidents reported in the grant application
materials submitted by the Phoenix Police Department (PPD) under Office of Justice Programs
(OJP) grant numbers 2009-SC-89-OI08 and 201O-DO-BX-0020. The draft report also indicates
that in each of these grant applications, the PPD slaled that the City of Phoenix had over 300
kidnapping incidents in 2008. Further, the draft report indicates that the DIG had received an
allegation thai thc actual number of kidn:lpping incidents was closer to 50 and that the review
was conducted in response to this allegation.

        OJP agrees with the statement in the 010 draft report that "application materials are
intended to provide reasonable assurance to the granting agency that the applicant is in need of
the funding, that the goals and objectives are in line with the program's mission, and that
management has the ability to sufficiently administer the grant." It is the responsibility of the
applicant to provide complete and reliable data in the application materials, so that the granting
agency has an opportunity to fairly assess cach applicant for the final funding decision. With
this aim in mind, it is essential for applicants to ensure that the data they provide to the granting
agencies is generated consistently and accurately. Additionally, we are pleased to learn that PPO
was eventually able to support the statements made in its initial grant application.




                                              - 14 ­
          However, it should be noted that, based on a review of the peer reviewer comments on
the initial, competitive application, and the funding recommendation memoranda, neither
application was funded exclusively or even substantially beeause ofthe specific problem
statements made by PPD, or the volume of reported offenses, per se. Specifically, the fund ing
so licitation, 10 which PPD applied, was seeking applications for projects that would address a
serious or violent crime problem through a data-driven approach. Thus, the volume of offenses
was not seen as a primary factor in the award of the grants, although the existence of a problem,
which was clearly demonstrated, did aid in their scoring.

      We a ppreciate the OIG 's efforts in this review and have shared the draft report with
official~
       at OJP's Bureau of Justice Statistics and the Federal Bureau of Investigation's Uniform
Crime Reporting Program fo r informational purposes.

       If you have any questions or require additional information, please COntact Jeffery A.
Haley, Deputy Director, Audit and Review Division. on (202) 616-2936.

cc:     James H. Burch, II
        Deputy Assistant Attorney General
          for Operations and Management

        Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Offi ce of Audit, Assessment, and Management

        Denise O ' Oormell
        Director
        Bureau ofJustiee Assistance

       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Melanie Davis
       Grant Program Specialist
       Bureau of Justice Ass istance

       Tahitia Barringer
       Grant Program Specialist
       Bureau of Justice Assistance




                                            - 15 ­
                                                                                                 APPENDIX II 19




                                        City of Phoenix
                                        OFFICE OF THE POLICE CHIEF


     January 12, 2012



     Norman K. Lau
     Spedal Agent in Charge
     U.S. Department of Justice
     Office of the Inspector General
     Denver Regional Audit Office
     1120 Lincoln Street, Suite 1500
     Denver, Colorado 80203

     Dav id M. Sheeren
     Regional Audit Manager
     U.S. Department of Justice
     Office of the Inspector General
     Denver Regional Audit Office
     1120 Lincoln Street, Suite 1500
     Denver, Colorado 80203

     Re: Audit Response - Review of the Phoeni x Police Deparbnent's 2008 Kldnapping Statistic
     Reported in Department of Justice Grant Applications

     Dear Mr. Lau and Mr. S heeren :

     The Phoeni x Police Department appreciates the opportunity to review and comment on the
     Office of the Inspector General's (OIG) draft report entitled , " Review of the Phoenix Police
     Department's 2008 Kidnapping Statistic Reported in Department of Justice Grant
     Applications. " The Phoeni x Poli c e Department is committed to the highest standards of public
     safety service and we believ e the inspections process is an important function that helps us to
     improve the level of service we provide to the community.

     The draft report concluded that from 533 case files revi ewed, 358 cases contained the elements
     of kidnapping and includes no finding related to intentional inflation of kidnapping statistics. This
     supports the Phoenix Police Department's statements in both grant applications that k idnapping
     inddents within Phoenix in 2008 topped over 300 incidents. This is also consistent with
     independent findings of our City Auditor, City Prosecutor and an outside panel of experts
     appointed by the aty Manager.

     These three external review s w ere periormed on the Police Department's 2008 k idnapping
     cases. Spedfically, one of the ex ternal review s was conducted by an independent panel w hose
     members are notable experts in Arizona law and in the criminal justice field . Panelists induded
     a retired associate justice of the Arizona Supreme Court, a retired judge with the Arizona Court
     of Appeals, a retired Federal Bureau of Investigation (FBI) Special Agent in Charge, a former

                      620 West Washington Street, Phoenix, Arizona 85003 602-262-6747




       19
          The Phoenix Police Department appended the following documents to its
response: (1) excerpts from the FBI’s website, including “UCR Frequently Asked Questions”
and “NIBRS General FAQs”; (2) the FBI’s National Incident Based Reporting, Volume One:
Data Collection Guidelines; and (3) the City of Phoenix Kidnapping Statistics Review Panel’s
Final Report. These documents were not included in this final version of the report.
                                                   - 16 ­
Mr. lau and Mr. Sheeren
Page 2
January 12, 2012

Tucson Assistant City Manager and current President and Chief Operating Officer ofa national
non-profit organization dedicated to improving local govemment, and an Associate Professor in
the School of Criminology and Criminal Justice at Arizona State University (the Panel's report is
attached for reference purposes).

Through their evaluation, the Panel concluded the City of Phoenix had a serious kidnapping and
home inv asion problem in 2008. The Panel also concluded that more than 600 separate
incidents of kidnapping occurred in 2008 . More importantly, they specifically review ed and
ultimately cisproved the allegation that the 2008 kidnapping figures used in our grant application
materials were intentionally inflated. The Panel stated in their final report they found ~no
credible evidence to indicate that the 2008 kidnapping numbers were intentionally inflated"
( Report page 11). Moreover, their rev iew concluded the number of kiooapping cases in 2008
w as actually under-reported and "there were, at a minimum, 668 separate incidents that met the
statutory criteria for kidnapping" ( Report page 11 ).

We appreciate the work done by the DIG reviewers. However, the Phoenix Police Department
is concerned with some of the methodology utilized in this draft report to validate the number of
kidnapping incidents. Specifically, numerous incidents were excluded by your audit team's
counts where defendants hav e been charged with kidnapping, convicted, and are serving prison
sentences.

Throughout the DIG review, the Phoenix Police Department has been forthright and transparent
w ith your audit team. We hav e openly conceded to the coding and classification errors
identified with the original kidnapping cases, and in the months since this fincing, w e have been
diligent in our efforts to correct the deficiencies. However, we are concerned w ith some of the
fincings contained in this draft report and have attached a detailed audit response from our
Inspections Unit. I respectfully request consideration of our responses for a revised report.
Overall, I am pleased to note that your audit confirmed our independent assessments that the
Phoenix Police Department dd not intentionally innate the kidnapping numbers that were listed
in our grant application materials.

I am proud of the improvements that have been made by the Phoenix Police Department
conceming our reporting procedures and methods. I am more than willing to have our
Inspections Unit staff meet with your audit team in an effort to resolve the noted concerns
contained within this draft or address any further questions.

Sincerely,




JOSEPH G. YAHNER
Acting Police Chief


Attachments




                 620 West Washington Street, PhoeniK, Ariz ona 85003 602-262-6747




                                            - 17 ­
         ATTACHMENT

  PHOENIX POLICE DEPARTMENT
PROFESSIONAL STANDARDS BUREAU
       INSPECTIONS UNIT

         Audit Response




             - 18 ­
                                         ATTACHMENT
Audit Response - Phoenix Police Department Professional Standards Bureau Inspections Unit

                 OIG Review of the Phoenix Police Department's 2008 Kidnapping
                  Statistic Reported in Department of Justice Grant Applications

Background

The OIG Draft Report "Review of the Phoenix Police Department's 2008 Kidnapping
Statistic Reported In Department of Justice Grant Applications" forwarded to Phoenix
Police Acting Chief Joseph Yahner on December 12, 2011 documents the following:

''The Office of the Inspector General (O/G) has completed a review of the Phoenix Police
Departments (PPD) 2008 kidnapping incidents reported in grant application materials submitted
by the PPD under Office of Justice Programs (OJP) Grant Nos. 2009-SC-B9-0108 and 2010-
DG-BX-0020. In each of these grant applications the PPD stated that the City of Phoenix had
over 300 kidnapping incidents in 2008. ~

The OIG received an allegation that although the City of Phoenix and PPD officials testified to
Congress that there were 368 kidnappings in 2008, the actual number of kidnapping incidents
was closer to 50. As a result, the objective of the OIG review was to verify the number of 2008
kidnapping incidents as reported in the grant applications and determine if they were
intentionally inflated.

OIG Methodology

The OIG utilized two separate approaches in their review of the 2008 reports submitted to
indicate if a kidnapping incident occurred . The first methodology was based on applying
appropriate Arizona Revised Statute codes and guidelines to each case to determine if the
elements of a kidnapping were present. This review specifically focused on the following factors:

   •   The incident occurred in 2008
   •   The incident occurred within PPD's jurisdiction
   •   The elements of a kidnapping existed based on the Arizona Kidnapping Statute
   •   The movement or confinement of the individual was not an integral part of a separate
       offense or was not merely incidental to the commission of another crime
   •   Kidnapping was the primary or highest offense based on Arizona Criminal code

The OIG concluded that from the 533 case files they reviewed, 358 cases contained the
elements of a kidnapping. This supports the Phoenix Police Departments statement in both
grant applications that kidnappings w ithin Phoenix in 2008 topped over 300 incidents. This
finding also disproves the allegation that the actual number of kidnapping incidents was closer
to 50.

The second methodology used to review the submitted departmental reports was based on the
incident being categorized for statistical reporting purposes. In the draft report, the OIG states
the PPD's case management system was specifically designed to conform to the Federal
Bureau of Investigation's (FBI) Uniform Crime Reporting (UCR) guidelines and that the PPD's
policies and procedures for departmental reports reflects the same guidelines. This review was
based on the following :

   •   FBI 's UCR Handbook for generally accepted guidelines and guidance for crime reporting
       practices, in particula r multiple offense situations;



                                              Page 1




                                             - 19 ­
                                         ATTACHMENT
Audit Response - Phoenix Police Department Professional Standards Bureau Inspections Unit

                  OIG Review of the Phoenix Police Department's 2008 Kidnapping
                   Statistic Reported in Department of Justice Grant Applications

      •   Phoenix PO policies and procedures (PPD policy requires incidents to be labeled by the
          primary crime or highest offense based on the Arizona Revised Statutes).

In the draft report, the OIG states, "Although kidnapping is not a reportable statistic under UCR
guidelines, it is reasonable, in our judgmlmt, to apply the same UCR guidelines and criteria for
all offense statistics put forth by the PPD. By using this framework, the data and all crime
statistics reported by the PPD would be consistently and uniformly generated, whether the
offense is reportable or non-reportable under UCR."

Through the application of this second methodology, the OIG concluded that of the 533 case
files reviewed; only 254 cases should be classified as a kidnapping for statistical reporting
purposes. Under this method, the OIG audit team discounted cases where a suspect was
charged and convicted of kidnapping. The PPO requests that this methodology be re vised to
allow inclusion of a charged, convicted case by the appropriate investigative unit as identified in
the grant application materials .

PPD Concerns Regarding the DIG Methodology

The PPD questions the second methodology applied by the OIG in their review of the Phoenix
Police Department's 2008 kidnapping incidents. Subsequent to the release of the OIG audit
team's preliminary findings, the Department's 2008 kidnapping reports were subject to four
separate reviews (information pertaining to the re viewe rs and their findings are detailed in the
following section).

W ith respect to the statistical reporting procedures referenced in OIG's second methodology,
according to the FBI website there are two methods for tracking crime data within the UCR
Program ; the traditional Summary Reporting System and the National Incident Based Reporting
System (see addendum A). Under the traditiona l Summary Reporting System, kidnapping is not
a reportable offense and wou ld not be tracked . The NIBRS Handbook viewed from the FBI
website states on page 13:

"In the Summary Reporting System, offense reporting is governed by the "Hierarchy Rule" that
works in the following manner: If more than one crime was committed by the same person or
group of persons and the time and space intervals separating the crimes were insignificant, then
the crime highest in the Crime Index hierarchy is the only one reported. Consequently, in
multiple-crime incidents the lower listed, less serious Part I offenses are not reported.

The Hierarchy Rule is!l2t used in NIBRS. Therefore, if more than one crime was committed by
the same person or group of persons and the time and space intervals separating them were
insignificant, all of the crimes are reported as offenses within the same incident" (see addendum
BJ.
An important point of clarification is that the incidents of reported 2008 kidnappings used in the
PPO's grant applications were extracted from the PPO's case management data contained
within the Department's records management system (known as Police Automated
Computerized Entry or PACE) based on the Arizona Revised Statute (ARS) code assigned to
the case. The ARS code is based on the initia l classification of the incident by the re sponding
officer, or any updates made by the assigned investigative unit as the investigatio n progresses.


                                              Page 2




                                             - 20 ­
                                        ATTACHMENT
Audit Response - Phoenix Police Department Professional Standards Bureau Inspections Unit

                OIG Review of the Phoenix Police DepaJtment's 2008 Kidnapping
                 Statistic Reported in Depattment of Justice Grant Applications

This approach differs fundamentally from the primary method utilized by the PPD for reporting
crime statistics.

The majority of the crime statistics produced by the PPD utilize the UCR Summary Reporting
System managed by the FBI. These UCR standards are also used by the majority of law
enforcement agencies throughout the country. As stated previously, under the UCR Summary
Reporting System, incidents are reported based on a hierarchy rule, which captures the most
severe or highest offense in an incident based on established guidelines. Kidnapping is not
captured under the UCR Summary Reporting System and would be encompassed under crimes
that are considered higher in severity based on the UCR criteria . Therefore, utilizing UCR was
not an option for the reporting of kidnapping statistics in Phoenix.

The UCR Summary Reporting System has some of the same inherent limitations as utilizing the
incidents classified by the ARS code in the PPD's PACE case management system . One of
the most significant issues is that based on the hierarchy rule, UCR only captures the highest
offense in an incident and in most cases, additional offenses are not included w hen reporting
counts by crime type. The FBI recognized this limitation and has been encouraging law
enforcement agencies to make the transition to NIBRS for crime reporting. NIBRS captures
multiple offenses in each incident, enabling the tracking, reporting, and analysis of more
detailed information on crime events . For example , although a homicide incident that also
involved kidnapping, sexual assault, and motor vehicle theft would be captured as a homicide
under the UCR Summary Reporting System , under NIBRS these distinct offenses would be
counted. The PPD took steps to move in this direction from late 2002 through mid-2005, but
due to system limitations inherent w ith the current records management system , the transition
was placed on hold .

Additional Reviews of PPD 2008 Kidnapping Statistics

After the OIG's initial review was completed in January of 2011 and preliminary findings and
concerns were discussed with PPD Executive Management officials, the Police Chief had the
Police Professional Standards Bureau Inspections Unit conduct an internal audit of the
kidnapping reports and associated reporting processes and procedures. In addition, the Phoenix
City Managers Office initiated three separate external review s. These reviews were performed
by:

     •   A City of Phoenix Deputy City Prosecutor
     •   The City Auditor Department
     •   City of Phoenix Independent Kidnapping Statistics Review Panel

Each review group utilized a similar methodology used by the OIG to determine if an incident
contained the elements of a kidnapping in accordance with Arizona Revised Statutes and that
the crime occurred within the City of Phoenix in 2008.

The PPD Inspections Unit audit found that 222 of the initial 358 (62%) cases reviewed met the
elements of a kidnapping. An additional review of 192 identified cases after a search of the case
management system revealed that 186 of 192 (97%) met the elements of a kidnapping . A total
of 408 of 550 (74%) cases re viewed met the elements of a kidnapping. In reviewing numerous
separate home invasion reports, the Inspectors found an additional 260 incidents that contained


                                             Page 3




                                            - 21 ­
                                             ATTACHMENT
Audit Response - Phoenix Police Department Professional Standards Bureau Inspections Unit

                 OIG Review of the Phoenix Police Department's 2008 Kidnapping
                  Statistic Reported in Department of Justice Grant Applications

the elements of a kidnapping. These reports were not accepted by the OIG audit team in order
to avoid issues that could be interpreted as "double dipping" by using a home invasion incident
that also contained the elements of a kidnapping. However, under the FBI NIBRS method of
collecting crime data, the PPD could produce 668 police reports from 2008 that contained the
elements of a kidnapping.

The City Prosecutor conducted a review of the initial 358 cases and found that 218 (61 %) met
the elements of a kidnapping. The City Prosecutor was not tasked with re viewing the additional
cases identified in the case management system. The City Prosecutor reported that in
overlaying his results with the PPD's review , the findings were consistent in 338 of the initial 358
(94.4%) cases in determining w hether or not the elements of a kidnapping were present.

The City Auditor Department Personnel conducted a review of 89 cases from the initial 358 and
39 of the additional 192 cases. The City Auditors agreed with the PPD Inspectors findings in
122 of 128 (95%) cases in determining w hether or not the elements of a kidnapping were
present. The City Auditor concluded that the PPD's Inspections process of validating reports for
kidnapping elements appears reasonable, accurate and supported by adequate documentation.
The City Auditor further documented that the Department of Justice OIG audit will conclude
w hether statistics used to obtain grant funds were intentionally misrepresented . However, they
noted they found no evidence that supports the allegation that kidnapping or home invasion
statistics w ithin the PACE system were intentionally inflated.

In March of 2011, the Phoenix City Manager appointed a Kidnapping Statistics Review Panel to
conduct an independent inquiry into questions surrounding the PPD's kidnapping statistics for
2008. The panel was comprised of the following individuals:

   •    Hon. Michael D. Ryan , Justice (ret.) , Arizona Supreme Court
   •    Hon. Cecil Patterson , Judge (ret.) Arizona Court of Appeals
   •    Larry McCormick Retired FBI Special Agent in Charge (Kansas City)
   •    Karen Thoreson , President, Alliance for Innovation and former Tucson Assistant City
        Manager (panel chair)
    •   Michael White , PhD, Associate Professor, ASU School of Criminology and Criminal
        Justice

In the final report, the Panel concluded :

"Based on the evidence presented by line detectives, supervisors and agents of federal
agencies, that Phoenix had a significant kidnapping and home invasion problem in 2008, and
that this problem was closely linked to the drug trade and human smuggling. It is, however,
nearly impossible to determine the precise number of kidnappings that occurred in 2008, given
the complexities of these crimes and the reporling and case management issues. Nevertheless,
the findings of the PSB audit indicate that at least 668 separate incidents occurred in Phoenix in
2008 that met the statutory criteria for kidnapping. The panel concludes that this number
appears credible.

Allegations were made in media reports and by employees testifying before the Panel, that the
kidnapping statistics for 2008 were intentionally inflated to obtain federal resources for the
Police Department. Through interviews and documented reviews , the Panel found no


                                                Page 4




                                               - 22 ­
                                          ATTACHMENT
Audit Response - Phoenix Police Department Professional Standards Bureau Inspections Unit

                 OIG Review of the Phoenix Police Department's 2008 Kidnapping
                  Statistic Reported in Department of Justice Grant Applications

convincing evidence to indicate that the kidnapping numbers from 2008 were intentionally
inflated to secure grant funding. n

The information regarding the findings from each review was provided to the OIG audit team .

Closing

The Phoenix Police Department applied for two federal grants in an attempt to obtain federal
funding to help combat a significant and unique crime issue occurring w ithin the City of Phoenix.
In 2008, Phoenix had a significant kidnapping and home invasion problem that was closely
linked to the drug trade and human smuggling . Armed robbery, kidnapping, human smuggling,
and home invasion occurrences are often complex; multiples of these crimes may be committed
in a single incident; and sometimes these crimes require significant police resources in order to
provide a safe response and to investigate properly. In recent years , multi-jurisdictional task
forces have been developed utilizing local and federal partners to combat the influx and severity
of this criminal activity.

In total there were five reviews completed regarding the 2008 kidnapping numbers utilized by
the PPD for the two grant applications. The rev iews were conducted by the following:

   •   Phoenix Police Department Professional Standards Bureau Inspection Unit
   •   City of Phoenix City Prosecutors Office
   •   City of Phoenix City Auditor Department
   •   City of Phoenix Kidnapping Statistics Review Panel
   •   U.S. Department of Justice Office of the Inspector General (OIG)

Each re view was consistent regarding the methodology pertaining to the elements of a
kidnapping being present. The outcome of each of these review s was also consistent. Although
cases w ithin the Phoenix Police Department were not always properly coded and classified , the
number of kidnapping incidents documented in each grant is supported. In addition , there is no
indication w ithin any of the reviews that the PPD intentionally inflated the number of 2008
kidnapping incidents contained within the grant applications.

The OIG conducted the only additional re view that utilized a methodology to determine how an
incident should be counted as a statistic. As stated throughout the response , the PPD requests
a re vision to this methodology, given the factual data provided that disputes the OIG findings
contained in this re view . The PPD respectfully requests that the OIG re vise their draft report to:

   •   Include only those observations that are based on a more defensible methodology for
       determining w hether an incident should be included in the kidnapping statistics
   •   Conclude on the OIG 's investigation into the allegation that the kidnapping statistics
       were intentionally inflated.




                                               Page 5




                                              - 23 ­
                                                                APPENDIX III

                 OFFICE OF THE INSPECTOR GENERAL
               ANALYSIS OF RESPONSES TO THE REPORT

      The Office of the Inspector General (OIG) provided a draft of this
report to the Office of Justice Programs (OJP) and to the Phoenix Police
Department (PPD), and their responses are incorporated in Appendices I
and II. The following sections outline these responses.

OJP’s Response

      In response to our report, OJP agreed that it is the responsibility of the
applicant to provide complete and reliable data in the application materials,
so that the granting agency has the opportunity to fairly assess each
applicant for the final funding decision. OJP also agreed that it is essential
for applicants to ensure that the data they provide to the granting agencies
is generated consistently and accurately.

      In addition, OJP stated that, “neither application was funded
exclusively or even substantially because of the specific problem statements
made by PPD, or the volume of reported offenses, per se.” As such,
according to OJP, the volume of the kidnapping incidents reported by the
PPD in its grant applications were “not seen as a primary factor in the award
of the grants, although the existence of a problem, which was clearly
demonstrated, did aid in their scoring.”

PPD’s Response

      In its response, the PPD noted that the OIG’s analysis of its case files
pursuant to the Arizona kidnapping statute was consistent with reviews
conducted by the PPD’s Professional Standards Bureau, City of Phoenix
Prosecutor’s Office, City of Phoenix City Auditor, and the City of Phoenix
Kidnapping Statistic Review Panel. The PPD also concurred with the OIG’s
findings regarding the coding and classification issues identified in our
report. However, the PPD expressed concerns with the OIG’s additional
analysis of the reviewed case files for crime reporting purposes. The
following provides the OIG’s response to the PPD’s concerns with this
additional analysis performed by the OIG.

Use of UCR Guidelines and Criteria

      In its response, the PPD disagreed with the OIG’s application of the
Federal Bureau of Investigation’s (FBI) Uniform Crime Reporting (UCR)
guidelines and criteria. Specifically, it stated that “utilizing UCR was not an

                                     - 24 -
option for the reporting of kidnapping statistics in Phoenix,” because
kidnapping is not a reportable statistic under UCR.

       As stated in our report, and as explained to the OIG by an official from
the PPD’s Crime Analysis and Research Unit (CARU), the number of
kidnapping incidents reported in the grant applications was generated in a
manner similar to the way other crime statistics are generated under the
FBI’s UCR guidelines. 20 We also learned that the PPD’s Police Automated
Computer Entry (PACE) case management system was specifically designed
to conform to UCR guidelines, and that the PPD’s policies and procedures for
Departmental Reports reflect the same guidelines. Even though kidnapping
is not a reportable statistic under UCR guidelines, the application of UCR
guidelines and criteria on all offense statistics put forth by the PPD would
ensure that statistics are consistently and uniformly generated and in
accordance with PPD’s policies and procedures, whether the offense is
reportable or non-reportable under UCR.

      Conversely, the PPD suggested in its response that the FBI’s National
Incident-Based Reporting System (NIBRS) would be a more accurate
indicator of the number of kidnapping incidents in Phoenix. NIBRS is an
incident-based reporting system in which law enforcement agencies collect
more comprehensive data on a single crime occurrence than UCR
reporting. 21 However, as the PPD recognizes in its response, although the
FBI has been encouraging law enforcement agencies to make the transition
to NIBRS for crime reporting, “due to system limitations inherent with the
current records management system, the transition was placed on hold.” 22
Because the NIBRS reporting method was unavailable to the PPD, and
because the PPD compiled the number of 2008 kidnapping incidents reported
in the grant application materials using a methodology similar to UCR, we
also used UCR guidelines and criteria in our additional analysis.

       20
           The PPD’s Crime Analysis and Research Unit (CARU) is responsible for the coding
of crime data entered through the PPD’s computerized reporting system, responding to both
internal and external requests for statistical data and for conducting administrative,
strategic, and tactical analysis of crime data, which includes counts based on UCR criteria.
       21
           NIBRS enables law enforcement agencies to report more than one offense for a
single incident for crime reporting purposes, as opposed to the UCR guidelines of reporting
an incident by a single and primary offense.
       22
           During our review, we were informed by an official of CARU that the PPD worked
on the transition to NIBRS from late 2002 until mid 2005. However, due to the constraints
of the PPD’s antiquated PACE case management system and the extensive resources
required, the PPD was unable to complete the transition. The long-term plan for the PPD is
to eventually move to NIBRS when they obtain a new record management system. As such,
the PPD currently uses UCR data to report their annual crime statistics since they do not
have the system capabilities to generate the information necessary for NIBRS reporting.


                                           - 25 -
Exclusion of Charged Kidnapping Cases

       The PPD stated in its response that we “discounted,” or excluded from
our case count, some “cases where a suspect was charged and convicted of
kidnapping.” In its response, the PPD suggested that it believes that these
cases should be classified as kidnappings for crime reporting purposes. As
such, the PPD requested that the OIG revise its methodology to allow
inclusion of charged and convicted cases of kidnapping that were not already
included in our case count. We disagree with the PPD’s assessment that we
“discounted” these cases and do not believe a revision to our methodology is
required.

       These PPD statements refer to our exclusion of certain cases, for crime
reporting purposes, for which a perpetrator was charged with both
kidnapping and other, related offenses. As noted in the report, the UCR
Handbook states that in a multiple offense situation, a law enforcement
agency must locate the offense that is the highest on the hierarchy list and
report that offense. As is also explained in the report, in multiple offense
situations that involved kidnapping and another equal offense, we followed
UCR guidance and determined that the incident should be counted as a
kidnapping when the movement or confinement of an individual was not an
integral part of the separate offense or was not merely incidental to the
commission of the other crime.

      We also note that the UCR guidelines state that “crime statistics are
intended to assist law enforcement in identifying the crime problem,” and
“participants must record offense counts, not the findings of a court.”
Ultimately, the only cases where kidnapping was charged but not counted by
the OIG in the crime reporting analysis were cases that involved attempted
murder, armed robbery, and other sexual offenses. 23

Exclusion of Home Invasions

      In its response, the PPD stated that during its review it identified an
additional 260 home invasion incidents that contained the elements of a
kidnapping and that “these reports were not accepted by the OIG audit

       23
          For example, two of the excluded cases were attempted homicides, in which the
perpetrators were charged with kidnapping, armed robbery, and attempted first and second
degree murder. Even though the elements of a kidnapping occurred in both of these cases,
they were incidental and performed merely in the performance of the attempted homicide.
Under UCR guidelines and PPD policy, incidents are to be classified by their primary, or
highest, offense. As such, these cases would be classified under attempted first and second
degree murder and not counted for the purposes of the PPD’s 2008 kidnapping statistic.


                                          - 26 -
team.” 24 According to the PPD, combining these home invasion cases with
the cases identified in the initial and subsequent case reviews (per the
NIBRS method) increases the total number of cases for 2008 that included
the elements of a kidnapping.

       The OIG’s additional review was not intended to determine the number
of cases in which the elements of a kidnapping existed, or the number of
cases for which kidnapping was charged. Rather, this additional analysis
analyzed how many of the 533 cases should be reported as kidnappings
pursuant to UCR guidance and PPD policy for crime reporting purposes. It
identified 254 such cases. Even though the NIBRS method may lead to
additional cases being reported as kidnappings, the PPD states clearly in its
response that the PPD has not adopted the NIBRS method due to system
limitations inherent with its current records management system. 25
Moreover, we emphasize that our decision not to review these home
invasion cases for the elements of a kidnapping did not impact the OIG’s
final determination that the number of kidnapping incidents reported in the
grant applications for 2008 was ultimately supported.

Additional Reviews

      Finally, the PPD noted in its response that reviews were also conducted
by the City Prosecutor, the City Auditor, and the Kidnapping Statistics
Review Panel, and emphasized that the PPD’s own review was consistent
with the findings of these other reviews. However, it is important to note
that the OIG, the PPD, the City Prosecutor, the City Auditor, and the
Kidnapping Statistics Review Panel did not all review the same case files,
and that the number of case files reviewed by each entity varied. 26
Moreover, the PPD was the only entity to review a large number of the case
       24
          These cases were properly classified under the Arizona Criminal Code for armed
robbery, and would have been identified during the data gathering process for the PPD’s
2008 armed robbery statistic, a reportable statistic under UCR. Reporting these cases as
both armed robbery and kidnapping would be inconsistent with UCR guidance and PPD
policy, which state that each incident should only be counted once for crime reporting
purposes.
       25
          In addition, we believe that including reported home invasions in the number of
reported kidnapping incidents would be misleading. Home invasions and kidnapping were
presented by the PPD in its grant applications as distinct and separate issues affecting the
City of Phoenix, and the grant application materials included numbers for both home
invasions and kidnappings.
       26
           The OIG reviewed the original 358 cases and 175 additional cases, which totaled
533 cases; the PPD reviewed approximately 1,700 cases; the City Prosecutor reviewed the
original 358 incidents only; the City Auditor sampled the cases by reviewing 128 cases; and
the Kidnapping Statistics Panel also “selected and reviewed a number of departmental
reports” but relied heavily on the PPD’s and the City Prosecutor’s analyses.


                                           - 27 -
files in question, such as the home invasion case files and many of the
additional cases identified in the case management system. We
acknowledge the Kidnapping Statistics Review Panel’s conclusion that the
result of the PPD’s review “appears credible,” but we also note that the Panel
relied heavily on the PPD’s and the City Prosecutor’s analyses and did not
conduct its own comprehensive review of the case files. In light of the
important methodological differences between the external reviews, we
cannot conclude that the other reviews can be relied on to support the
credibility of the PPD’s findings.




                                    - 28 -
